U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

October 24, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Ryan Courtade v. United States of America,
S.CtNo. 19-428

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September 1,
2019, and placed on the docket on September 1, 2019. The government's response is due on
October 31, 2019.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including December 2, 2019, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-0428
COURTADE, RYAN
USA

GREGORY M. UPPER
CLiNTON & PEED
777 6TH STREET, NW
11TH FLOOR
WASHINGTON, DC 20001
202-996-0919
GLIPPER@CLINTONPEED.COM

